Department of Homeland Security
   Ofﬁce of Inspector General

               DHS Detainee Removals 

             and Reliance on Assurances 





OIG-11-100                                  November 2011
                                                 (Revised)
November 29, 2011
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................3
 


Results of Review ................................................................................................................4 


     Obtaining Assurances ....................................................................................................4 


     Determining the Reliability of Assurances ..................................................................18 


     Implementing and Monitoring .....................................................................................22 


     Management Comments and OIG Analysis ................................................................24 


Appendixes
     Appendix A: Purpose, Scope, and Methodology.......................................................27 

     Appendix B: Management Comments to the Draft Report .......................................28 

     Appendix C: Tasking Document ...............................................................................30 

     Appendix D: CAT Protection Process for Expedited Removals Per 

                 INA § 235(b)(1) ...................................................................................31 

     Appendix E: CAT Protection Process for Administrative Removals Per 

                 INA § 238(b) and Reinstatement of Removal Per INA § 241(a)(5) ....32 

     Appendix F: Major Contributors to this Report........................................................33 

     Appendix G: Report Distribution ..............................................................................34 


Abbreviations
 CAT                       United Nations Convention Against Torture and Other Cruel, Inhuman
                           or Degrading Treatment or Punishment
 CBP                       U.S. Customs and Border Protection
 C.F.R.                    Code of Federal Regulations 

 CRCL                      Office for Civil Rights and Civil Liberties 

 DHS                       Department of Homeland Security 

 EOIR                      Executive Office for Immigration Review 

 FARRA                     Foreign Affairs Reform and Restructuring Act of 1998 

 ICE                       U.S. Immigration and Customs Enforcement 

 ICRC                      International Committee of the Red Cross 

 IIRIRA                    Illegal Immigration Reform and Immigrant Responsibility Act of 1996

 INA                       Immigration and Nationality Act 

 INS                       Immigration and Naturalization Service 

 NGO                       nongovernmental organization                

 PATRIOT Act               Uniting and Strengthening America by Providing Appropriate Tools 

                           Required to Intercept and Obstruct Terrorism Act of 2001
 USCIS                     U.S. Citizenship and Immigration Services
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Special Interagency Task Force on Interrogation and Transfer
                Policies, created by Executive Order 13491, requested that the
                Inspectors General from the Departments of Homeland Security,
                State, and Defense report on the transfers conducted by each
                agency in reliance on diplomatic assurances of humane treatment
                of persons transferred to another country. Diplomatic assurances
                are written documents or communications from a foreign country
                designed to reduce the risk that an individual removed to that
                country will face torture.

                Specifically, the Task Force requested that the Inspectors General
                for the three Departments report on the process for obtaining
                assurances, their content and implementation, and the treatment of
                persons transferred between August 24, 2009 and August 25, 2010,
                when transfers involved obtaining assurances.

                Although the Department of Homeland Security did not seek or
                obtain assurances during the reporting period, we sought to
                understand its role in obtaining and validating assurances and
                monitoring post-removal treatment, in compliance with Article 3
                of the United Nations Convention Against Torture and Other
                Cruel, Inhuman or Degrading Treatment or Punishment, as
                implemented in U.S. law. This report is the result of our review.

                Although we do not make any recommendations, aspects of the
                assurances process warranted examination. For example, the
                regulations are silent as to potential candidates for assurances,
                factors countries may consider when contemplating a candidate,
                and the content of assurances. Furthermore, though the
                Convention and the legislation implementing U.S. treaty
                obligations under the Convention do not define reliability
                regarding assurances (as the Convention makes no reference to
                assurances), Department officials, a Department of State official,
                and NGO representatives discussed with us factors to consider
                when assessing reliability. There appears to be a consensus within
                DHS that assurances need to be fact-specific, and that someone
                with protection expertise should be involved in determining
                reliability factors consistent with those recommended by the Task

                 DHS Detainee Removals and Reliance on Assurances

                                      Page 1
Force. We reviewed these and other aspects of assurances, such as
the process through which aliens may seek and receive protection
against torture. To that end, we explored internal guidance and
controls that protect aliens who express fear at any stage in the
immigration process.




 DHS Detainee Removals and Reliance on Assurances 


                      Page 2 

Background
             On January 22, 2009, President Obama issued Executive Order
             13491, Ensuring Lawful Interrogations, which established a
             Special Interagency Task Force on Interrogation and Transfer
             Policies. The Task Force established an Interrogation Working
             Group and a Transfer Working Group. The objective of the
             Interrogation Working Group was to evaluate whether the
             interrogation practices and techniques in Army Field Manual 2–
             22.3, when employed by departments or agencies outside the
             military, provide an appropriate means of acquiring the
             intelligence necessary to protect the Nation. The objective of the
             Transfer Working Group was to examine the practices of
             transferring individuals to other nations. The goal was to ensure
             that such practices comply with the domestic laws, international
             obligations, and policies of the United States and do not result in
             the transfer of individuals to other nations to face torture or
             otherwise for the purpose, or with the effect, of undermining or
             circumventing the commitments or obligations of the United
             States, and to ensure the humane treatment of individuals in its
             custody or control. The Task Force met with U.S. government
             agencies, foreign officials, and nongovernmental organizations
             (NGOs). Those meetings resulted in several recommendations
             relating to interrogation and transfer policy.

             Among the recommendations, the Task Force noted the need for
             the United States to clarify and strengthen its procedures for
             obtaining assurances, improve its capabilities for evaluating
             assurances, and increase the use of monitoring procedures to
             implement assurances. The Task Force recommended that the
             Inspectors General from the Departments of Homeland Security
             (DHS), State, and Defense to report on the transfers they
             conducted in reliance on assurances of humane treatment of
             persons transferred to another country. Specifically, the Task
             Force requested that we report on the process for obtaining the
             assurances, the content of the assurances, the implementation and
             monitoring of the assurances, and the post-transfer treatment of the
             person transferred. Our review focuses on transfers pursuant to
             assurances in the immigration context between August 24, 2009,
             and August 25, 2010.




              DHS Detainee Removals and Reliance on Assurances 


                                   Page 3 

Results of Review
           Obtaining Assurances
                     In the immigration context, diplomatic assurances are rare and
                     extraordinary political documents designed to reduce the risk of torture to
                     an alien removed to his or her home country or a third country. A foreign
                     government may provide these documents promising that an individual
                     will not be tortured and that the government will abide by its international
                     law obligations, specifically the United Nations Convention Against
                     Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment
                     (CAT). In the U.S. immigration context, assurances are factored into the
                     analysis of whether an alien is at substantial risk of torture. Reliable
                     assurances might enable a state to return an individual—who otherwise has
                     been determined to face a substantial risk of torture in a certain country—to
                     the country providing the assurances. A transfer pursuant to unreliable
                     assurances would violate the CAT if the individual would more likely than
                     not be tortured in the receiving country. But reliable assurances, which
                     lessen the likelihood of torture, might make it possible to return an alien in
                     compliance with the CAT.

                     In the United States, assurances may arise in the immigration context
                     when U.S. Immigration and Customs Enforcement (ICE) seeks to remove
                     an alien who has received CAT torture protection. U.S. law allows the
                     Secretary of State to seek, and high-level DHS officials to credit,
                     assurances that the alien will not be tortured. DHS may credit the
                     assurances if they tip the balance of factors such that it is no longer “more
                     likely than not” that the alien will be tortured upon return. If the
                     assurances are sufficiently reliable to permit removal consistent with
                     Article 3 of the CAT, and any applicable deferral or withholding of
                     removal is terminated, the alien may be returned. Once deferral or
                     withholding of removal is terminated on the basis of assurances, the matter
                     will not be considered further in the Immigration Courts or before the
                     Board of Immigration Appeals. 1

                     Under no circumstances should a removal proceed in violation of the
                     United States’ non-refoulement obligations, pursuant to Article 3 of the
                     CAT and the 1967 U.N. Protocol relating to the Status of Refugees (“1967
                     Refugee Protocol”). Non-refoulement is an international principle
                     prohibiting the transfer of an individual from one country to another if he
                     or she would face a violation of certain human rights. With some
                     variations as to the persons it protects and the risks from which it protects,
                     this principle is found in the context of refugees, extradition, human rights,

1
    The availability and extent of judicial review are unsettled areas of the law.


                                DHS Detainee Removals and Reliance on Assurances

                                                       Page 4
                   and humanitarian law. Under the 1967 Refugee Protocol, which
                   incorporates the non-refoulement obligation in Article 33 of the 1951
                   Refugee Convention, a signatory such as the United States generally may
                   not return an individual to a territory where his or her life or freedom
                   would be threatened on account of his or her race, religion, nationality,
                   membership in a particular social group, or political opinion. Of relevance
                   to the diplomatic assurances context, Article 3 of the CAT contains an
                   explicit, absolute non-refoulement provision that is not based on these
                   protected grounds, but instead prohibits return to a country where there are
                   substantial grounds to believe that an individual would be in danger of
                   being subjected to torture.

                   Although assurances are permissible under U.S. law, regulations guiding
                   their use are largely silent on agency requirements. By their nature,
                   assurances are fact-dependent and ad hoc. Consequently, DHS approaches
                   them on an ad hoc basis. Furthermore, assurances are so rare and difficult
                   to obtain that aliens granted CAT protection are nearly always either
                   released in the United States or returned to a country where they are not
                   “more likely than not” to be tortured.

                            Convention Against Torture

                            The Convention Against Torture is an international human rights
                            treaty. CAT Article 3 prohibits a State Party from sending an alien
                            to a country “where there are substantial grounds for believing that
                            he would be in danger of being subjected to torture.” The United
                            States signed CAT on April 18, 1988, and ratified it on October 21,
                            1994, subject to certain declarations, reservations, and
                            understandings, including a declaration that Articles 1 through 16
                            are not self-executing and therefore require domestic implementing
                            legislation. The United States declared that it understands the
                            phrase, “where there are substantial grounds for believing that he
                            would be in danger of being subjected to torture” to mean “if it is
                            more likely than not that he would be tortured.” In 1998, Congress
                            implemented the CAT treaty obligations by enacting the Foreign
                            Affairs Reform and Restructuring Act of 1998 (FARRA). 2 The
                            FARRA expressed U.S. policy not to “expel, extradite, or
                            otherwise effect the involuntary return of any person to a country
                            in which there are substantial grounds for believing the person
                            would be in danger of being subjected to torture, regardless of
                            whether the person is physically present in the United States.” The
                            FARRA also directed relevant agencies to promulgate regulations
                            implementing U.S. obligations under Article 3.

2
    P.L. 105-277, div. G, tit. XXII (FARRA), § 2242.


                              DHS Detainee Removals and Reliance on Assurances

                                                   Page 5
CAT-implementing regulations, required by the FARRA and
codified in sections 208.16-208.18 and 1208.16-1208.18 of Title 8
of the Code of Federal Regulations (C.F.R.), prohibit the removal
of an alien to any country where the alien would “more likely than
not” be subjected to torture. An alien seeking protection under the
CAT in the United States has the burden of meeting this “more
likely than not” standard.

The CAT defines torture as “any act by which severe pain or
suffering, whether physical or mental, is intentionally inflicted on a
person … by or at the instigation of or with the consent or
acquiescence of a public official or other person acting in an
official capacity.” Consistent with U.S. ratification history, DHS
and Department of Justice regulations implementing Article 3 in the
removal context define torture as “an extreme form of cruel and
inhuman treatment and does not include lesser forms of cruel,
inhuman or degrading treatment or punishment that do not amount
to torture.” The regulations specify that torture under the CAT
means that (1) the treatment must be an extreme form of cruel,
inhuman, or degrading treatment entailing severe mental or physical
pain or suffering; (2) the perpetrator must have had specific intent to
inflict severe pain or suffering; (3) a public official or person acting
in an official capacity inflicted or instigated the treatment or
consented to or acquiesced in it; and (4) the act must be directed
against a person in the offender’s custody or physical control. Such
treatment does not include pain or suffering arising solely from,
inherent in, or incidental to lawful sanctions.

Implementing regulations describe the types of evidence that must
be considered when an individual seeks protection under the CAT.
In assessing whether it is more likely than not that an applicant
would be tortured in the proposed country of removal, all evidence
relevant to the possibility of future torture shall be considered,
including the following:

    �	 Evidence of past torture inflicted upon the applicant;
    �	 Evidence that the applicant could relocate to a part of the
       country of removal where he or she is not likely to be
       tortured;
    �	 Evidence of gross, flagrant, or mass violations of human
       rights within the country of removal, where applicable; and
    �	 Other relevant information regarding conditions in the
       country of removal.




 DHS Detainee Removals and Reliance on Assurances

                      Page 6
                          DHS officials said that the “more likely than not” standard to
                          receive CAT protection, reflected in one of the “understandings” in
                          the U.S. ratification instrument, is difficult to meet. Such a
                          standard ensures that only aliens truly at risk of torture, as defined
                          in U.S. law, will receive CAT protection. There are no bars to
                          CAT protection, since there is an absolute prohibition on torture.
                          Even terrorists and human rights violators must be protected from
                          torture.

                          DHS officials said that aliens can express fear leading to a CAT
                          claim at any point in the immigration process, even after the
                          issuance of a final order of removal if a motion to reopen is filed
                          with the Immigration Court or the Board of Immigration Appeals.
                          One effective measure that DHS employs to implement its
                          obligations under Article 3 of the CAT is investigating a
                          removable alien’s expression of fear of return to the country of
                          removal. DHS is obligated to investigate each such claim of fear,
                          even if the alien is determined inadmissible, has been convicted of
                          an aggravated felony, or is present illegally. In most cases, an
                          immigration judge will adjudicate CAT claims.

                          DHS internal policies provide aliens with substantial due process
                          rights, including the right to be interviewed about fears of
                          returning to a specific country and the right to contest both an
                          asylum officer’s credible fear or reasonable fear determination and
                          an immigration judge’s determination of eligibility for withholding
                          or deferral of removal. DHS procedures ensure that no alien who
                          expresses fear of torture is removed to a country without his or her
                          claim being reviewed. In some cases, an alien may have had a
                          CAT claim reviewed and denied years before his or her actual
                          removal. In such instances, where personal circumstances or
                          country conditions have changed, the CAT analysis may be
                          rendered “stale” but will not be reevaluated unless the alien has
                          filed a motion to reopen with the Immigration Court or the Board
                          of Immigration Appeals.

                          U.S. CAT Protection Under Article 3 – “Withholding of
                          Removal” (under CAT) and “Deferral of Removal”

                          “Withholding of removal” and “deferral of removal” describe two
                          forms of CAT Article 3 protection under U.S. law that prevent an
                          alien from being removed to a country where he or she is “more
                          likely than not” to experience torture. 3 With the enactment of the
3
 Another type of withholding of removal is contained in Immigration and Nationality Act (INA)
§241(b)(3). It is based on an alien’s fear of persecution and is not a form of CAT protection.


                           DHS Detainee Removals and Reliance on Assurances

                                                 Page 7
Illegal Immigration Reform and Immigrant Responsibility Act of
1996 (IIRIRA), some immigration terminology changed. Aliens
ineligible to lawfully enter the United States became
“inadmissible,” “removable,” or “removed,” whereas they
previously were held “excludable” and ordered “deported.” Thus,
post-IIRIRA, an alien granted withholding or deferral of removal
has his or her “final order of removal” (or deportation order) either
“withheld” or “deferred.”

Withholding of removal (under the CAT) generally prevents an
alien’s removal to a particular country indefinitely unless the case
is reopened and DHS establishes that the alien is not more likely
than not to be tortured in that country. The motion to reopen will
not be granted unless it is supported by material evidence that was
unavailable and could not have been presented at the earlier
hearing. Withholding is granted to aliens meeting the “more likely
than not” standard who are not subject to “mandatory denial” of
withholding on national security, criminal, or related grounds. An
alien granted withholding of removal may be removed to another
country where he or she is not “more likely than not” to experience
torture.

Deferral of removal is granted to those eligible for CAT protection
who are barred from receiving withholding of removal on national
security, criminal, or related grounds. Deferral of removal is a
more temporary protection. It may be terminated at any time the
alien is no longer “more likely than not” to face torture. Like
withholding, an alien granted deferral of removal may be removed
to another country where he or she is not “more likely than not” to
experience torture.

Deferral of removal, like withholding of removal, must be
terminated before removal may proceed. The key difference with
deferral is that if DHS moves for a termination hearing, the
immigration judge must hold a hearing if the DHS motion is
supported by any evidence relevant to the probability of torture
that was not previously considered, regardless of whether the
evidence was previously available. It is not necessary to meet the
standards for reopening a case in order for a termination hearing to
be held, and at such a hearing it is the alien’s burden of proof to
establish that he or she continues to face a likelihood of torture in
the country in question. Even when assurances are obtained and
credited, the Secretary of Homeland Security must terminate
deferral before removal can proceed.



 DHS Detainee Removals and Reliance on Assurances

                      Page 8
                         Assurances in the DHS Context: Administrative Removal,
                         Reinstatement of Removal, and Expedited Removal

                         DHS is involved in several categories of removal proceedings that
                         could involve diplomatic assurances.

                         In “traditional” removal proceedings under INA § 240, where DHS
                         officials said that most CAT claims arise, only the immigration
                         judge has authority to issue a removal order. ICE attorneys litigate
                         § 240 removal cases on behalf of DHS before Immigration Courts
                         falling under the jurisdiction of the Department of Justice’s
                         Executive Office for Immigration Review (EOIR), which
                         administers the nation’s immigration court system. DHS would
                         generally pursue diplomatic assurances only after an immigration
                         judge grants the alien CAT protection. 4

                         DHS also may be involved in assurances when the Department of
                         Justice seeks assurances as part of a plea agreement or, as either an
                         observer or participant in interagency discussions, in the
                         Guantanamo Bay context.

                         Additionally, DHS is involved in three types of streamlined or
                         “expedited” removal proceedings that do not require hearings
                         before an immigration judge: (1) administrative removal, (2)
                         reinstatement of removal, and (3) expedited removal. In these
                         proceedings, DHS has the authority to enter a removal order and
                         screens cases for potential torture concerns. If torture concerns are
                         present, the claim for CAT protection from removal is referred to
                         an immigration judge.

                         Administrative removal applies to aliens convicted of an
                         aggravated felony. 5 Reinstatement of removal applies to aliens
                         who have reentered the United States illegally after having
                         departed from the United States under an order of removal. 6 Such
                         aliens have no right to a hearing on their removability before an
                         immigration judge, but they are eligible to apply for withholding or
                         deferral of removal under the CAT regulations in specialized
                         proceedings before an immigration judge.

                         Expedited removal proceedings apply to aliens who are
                         inadmissible because of fraud, misrepresentation, or insufficient
                         documentation, and allow DHS to issue and execute an expedited

4
  See INA § 240.
5
  See INA § 238(b).
6
  See INA § 241(a)(5).


                          DHS Detainee Removals and Reliance on Assurances 


                                               Page 9 

                           removal order without further review by an immigration judge,
                           unless the alien expresses a credible fear of persecution or torture
                           or the intention to apply for asylum. A separate form of expedited
                           removal applies to aliens subject to certain security-related grounds
                           of inadmissibility. 7 IIRIRA amended the Immigration and
                           Nationality Act (INA) to provide for expedited removal without a
                           hearing or right of appeal for certain arriving aliens. At the
                           Secretary’s discretion, expedited approval may be applied to aliens
                           apprehended in the United States who have not been admitted or
                           paroled 8 into the United States and who cannot prove that they
                           have been physically present in the United States continuously for
                           2 years. 9 As of August 11, 2004, DHS applies expedited removal
                           to aliens apprehended within 100 miles of a U.S. border who have
                           not been admitted or paroled into the United States and who cannot
                           prove that they have been physically present in the United States
                           for 14 days or more. 10

                           One DHS official said that the only time DHS makes CAT
                           determinations (in contrast to instances when DHS makes
                           threshold screening determinations) is in certain instances when an
                           arriving alien is determined to be inadmissible on national
                           security-related grounds. However, DHS may decide to terminate
                           CAT protection on the basis of assurances consistent with Article
                           3. 11

                           Expedited Removal and the Credible Fear Interview

                           U.S. Customs and Border Protection (CBP) officers and agents and
                           ICE officers are required to refer certain aliens in expedited
                           removal who claim asylum or express fear of persecution or torture
                           to an asylum officer for a “credible fear” interview. 12 In a credible
                           fear interview, an asylum officer will determine whether there is a

7
  See INA § 235(c).
8
  “Parole” means that the alien has been granted temporary permission to enter or be present in the United
States but is not admitted. Unless granted another lawful status, the alien will be required to leave when the
parole expires or is terminated.
9
  See INA § 235(b).
10
   Designating Aliens for Expedited Removal, 69 Federal Register 48877-48880 (Aug. 11, 2004).
11
   See 8 C.F.R. §§ 208.17(f), 208.18(c), 1208.17(f), 1208.18(c).
12
   The regulations are unclear, however, on when DHS must refer aliens inadmissible on national
security-related grounds and subject to expedited removal to INA § 235(c) proceedings, as
opposed to traditional INA § 240 proceedings. Furthermore, when DHS decides to refer an alien
to 235(c) proceedings, regulations are unclear as to how CAT claims are to be handled. See 8
C.F.R. § 235.8(b)(4) (stating that DHS “shall not execute a removal order under this section under
circumstances that violate section 241(b)(3) of the Act or Article 3 of the Convention Against
Torture”).


                             DHS Detainee Removals and Reliance on Assurances

                                                   Page 10
significant possibility that the alien can establish eligibility for
asylum, withholding of removal under INA § 241(b)(3), or
withholding or deferral of removal under Article 3 of the CAT, in a
full hearing before an immigration judge. When a CBP officer or
agent or an ICE officer refers such an alien to an asylum officer,
the agent must provide the alien Form M-444. Form M-444
describes the alien’s rights to consult with others and to request a
review by an immigration judge of the asylum officer’s credible
fear determination, as well as a description of the interview.
According to CBP officials, this might be the last time CBP has
contact with that alien. If the claim does not meet the credible fear
standard, United States Citizenship and Immigration Services
(USCIS) might refer the case back to CBP for processing. But if
an asylum officer determines that there is credible fear, CBP no
longer plays a role. The process for determining CAT protection
in expedited removal, except for aliens who are inadmissible on
national security grounds, is depicted graphically in appendix D.

An asylum officer will use the “credible fear” standard as stated in
the INA and implementing regulations. The INA states that “the
term credible fear of persecution means that there is a significant
possibility, taking into account the credibility of the statements
made by the alien in support of the alien’s claim and such other
facts as are known to the officer, that the alien could establish
eligibility for asylum.” After interviewing the alien, an asylum
officer will first determine whether the alien has a credible fear of
persecution.

If an alien does not establish a credible fear of persecution, the
asylum officer will determine whether the alien has a credible fear
of torture. Regulations provide that the alien will be determined to
have a credible fear of torture if he or she establishes that there is a
“significant possibility” that he or she is eligible for withholding or
deferral of removal under the CAT. According to the Asylum
Officer Basic Training Course Manual, this means that there is a
“substantial and realistic possibility” that the alien will be found
credible, and therefore succeed on the merits, in a full hearing.
DHS officials explained that the credible fear screening offers a
lower threshold than granting asylum, withholding of removal, or
deferral of removal; the intent is to provide an expeditious
screening to ensure that no alien is removed from the United States
under circumstances that would violate U.S. non-refoulement
obligations under the 1967 Refugee Protocol or Article 3 of the
CAT.



 DHS Detainee Removals and Reliance on Assurances

                     Page 11
An asylum officer will refer an alien believed to have credible fear
to EOIR for removal proceedings. After DHS charges an alien
with violating immigration law, EOIR primarily decides whether
the alien should be ordered removed from the United States or
should be granted relief or protection from removal. The alien
may apply before EOIR for asylum, withholding of removal under
INA § 241(b)(3), or CAT protection.

If the asylum officer determines that the alien does not have a
credible fear of persecution or torture, the alien will be ordered
removed. The alien may ask an immigration judge to review the
asylum officer’s decision, but if the judge agrees with the asylum
officer, the alien will not be able to appeal further. If the
immigration judge overturns the asylum officer, the alien will be
referred for a full § 240 removal hearing, at which time the alien
may apply for CAT protection or other forms of relief or protection
from removal.

Administrative Removal and Reinstatement of Removal, and
the Reasonable Fear Interview

If an alien in the administrative removal or reinstatement of
removal context expresses fear of return, an ICE officer or CBP
officer or agent will
refer the alien to an          To clarify, the Homeland Security Act of
asylum officer for a           2002, as amended, transferred many of the
“reasonable fear”              immigration authorities exercised by the
interview. Similar to a        Attorney General and the Immigration and
credible fear interview,       Naturalization Service (INS) to the
a reasonable fear              Secretary of DHS and DHS components.
interview serves as a
low-threshold screening mechanism to ensure that no alien is
removed from the United States under circumstances that would
violate its non-refoulement obligations. The Asylum Officer Basic
Training Course Manual states, “In contrast to the credible fear
determination, where the asylum officer determines only whether
there is a significant possibility the applicant may establish a
credible claim, the asylum officer must make a finding as to
whether the claim is or is not credible.” Regulations state that a
reasonable fear of torture exists when an alien establishes a
“reasonable possibility” that he or she will be tortured in the
country of removal. The standard of proof to establish “reasonable
fear of persecution or torture” is the “reasonable possibility”
standard. This is the same standard required to establish a “well­
founded fear” of persecution in the asylum context, and is lower


 DHS Detainee Removals and Reliance on Assurances

                     Page 12
than the “more likely than not” standard. It is higher, however,
than the standard of proof required to establish a “credible fear” of
persecution. The process for determining CAT protection for
aliens subject to administrative removal or reinstatement of
removal is depicted graphically in appendix E.

If an asylum officer determines that the alien who is subject to an
administrative or reinstated removal order has a reasonable fear of
persecution or torture, meaning that there is a reasonable
possibility of success on the merits, the officer will refer the alien
to EOIR for “withholding only” proceedings before an
immigration judge. If an asylum officer determines that the alien
does not have a reasonable fear, the alien will be removed pursuant
to the administrative removal order or reinstatement of removal
order. The alien may ask an immigration judge to review the
asylum officer’s decision, but if the judge agrees with the asylum
officer, the alien will not be able to appeal further. If the
immigration judge overturns the asylum officer, then the alien will
be placed in “withholding only” proceedings.

During “withholding only” proceedings, an alien may apply only
for withholding of
removal under INA §          Before DHS was created, the Department of
241(b)(3) or CAT             Justice housed two main components
protection. The alien        implementing immigration law: INS and
may not apply for            EOIR. The Homeland Security Act of 2002,
asylum. The                  transferred INS responsibilities to DHS and
immigration judge will       EOIR stayed with Department of Justice.
not grant these forms of
protection, including
under the CAT, if he or she finds that the alien is ineligible. Both
DHS and the alien have the right to appeal the immigration judge’s
decision to EOIR’s Board of Immigration Appeals.

Initial DHS Involvement in Obtaining Assurances

Both Department of State and DHS officials stressed that
assurances cases have been so rare that there is no “standard
practice.” Furthermore, immigration regulations are largely silent
as to agency requirements regarding assurances. That said,
officials agreed that, as a first step, ICE would approach the
Department of State to discuss assurances. According to a
Department of State official, DHS might want the Department of
State to inform DHS’ legal strategy in removal proceedings as
DHS considers whether to stipulate to CAT deferral. At this point,


 DHS Detainee Removals and Reliance on Assurances

                     Page 13
however, the Department of State would not take an official
position as to whether the alien would meet the “more likely than
not” standard. The Department of State would not approach a
country about assurances until the alien has been granted CAT
protection, including in cases in which DHS stipulated to eligibility
for deferral or withholding of removal. But the Department of
State might discuss informally with DHS, before CAT protection
has been granted, whether assurances may be an effective factor
reducing the risk of torture and influencing whether an alien may
be removed without violating Article 3 of the CAT. According to
an ICE official, if the Department of State agrees to seek the
assurances, DHS might receive them in approximately 6 months.

A Department of State official explained that after the Department
of State receives DHS’ request, officials would cable the
appropriate U.S. embassy to specify the terms that it would want
the assurances to contain. The Department of State would hope
that the providing government authority complies with its
suggested language.

The regulations are silent as to who may be considered for
assurances and what factors the Department of State may consider.
ICE officials said that DHS is engaged in interagency discussions
to determine whether assurances are suitable and feasible, but DHS
officials did not share what factors are considered.

A USCIS official said that although assurances may be sought at
any point in the process, they are intended as a last resort. DHS
will very rarely even consider a candidate for assurances. Not only
are assurances controversial, but the time and effort to obtain
reliable assurances are prohibitive. A Department of State official
advised, however, that if DHS intends to consider them, the
Department of State would like to participate as early as possible
in the process.

DHS Components’ Involvement

ICE is the DHS component that currently handles assurances cases.
Although USCIS asylum officers play a role in CAT protection in
that they conduct credible fear and reasonable fear interviews,
USCIS is not currently involved in deliberations or decisions on
assurances.

According to ICE officials, the only DHS assurances cases have
involved three Rwandan nationals and an Egyptian national.


 DHS Detainee Removals and Reliance on Assurances

                     Page 14
Although assurances have been obtained and credited for the
Rwandan nationals, the Rwandans are still in custody, pending a
determination by the Deputy Secretary of Homeland Security
whether to terminate deferral of removal. Following litigation in
the federal courts, DHS is no longer pursuing the removal of the
Egyptian national.

Detention of Aliens Seeking CAT Protection

Aliens subject to expedited removal generally must be detained
until they are removed and may only be released because of a
medical emergency or for law enforcement purposes. If the alien
expresses a fear of persecution or the intent to apply for asylum,
DHS places the alien in detention until a “credible fear”
determination can be made. If the asylum officer determines that
the alien has credible fear, the alien may be paroled into the United
States. If the asylum officer does not find that the alien has a
credible fear, the alien is detained until removal.

Under immigration law, DHS generally is required to detain the
following individuals:

   �	 Criminal aliens (including those who are inadmissible on
      criminal grounds and who have committed specified
      criminal offenses while in the United States);
   �	 Aliens presenting national security risks;
   �	 Arriving aliens subject to expedited removal, including
      aliens who are awaiting a credible fear determination or
      who were determined not to have a credible fear;
   �	 Those with final orders of removal who have committed
      aggravated felonies, or have been determined to be
      inadmissible under INA § 212(a)(3)(B) or removable under
      INA § 237(a)(4)(B) for terrorism grounds; and
   �	 Certified terrorist suspects.

DHS may detain aliens not subject to mandatory detention,
including the following:

   �	 Inadmissible, noncriminal arriving aliens not in expedited
      removal;
   �	 Aliens post-removal order, after 6 months when removal is
      reasonably foreseeable or under certain “special
      circumstances;” and
   �	 Any other alien who is in removal proceedings.



 DHS Detainee Removals and Reliance on Assurances

                     Page 15
Aliens not subject to mandatory detention can be paroled, released
on bond, or kept in continued detention under special circumstances.

U.S. CAT Obligations: Law Enforcement and Continued
Detention

U.S. immigration regulations provide three procedures to ensure
compliance with U.S. treaty obligations under the CAT:
streamlined termination procedures under 8 C.F.R. §§ 208.17(d)
and 1208.17(d) for those granted deferral of removal; diplomatic
assurances; and continued detention under 8 C.F.R. §§ 208.17(c)
and 1208.17(c). DHS officials explained that continued
detention—meaning detention after an alien has received a final
order of removal, or “post-removal order detention”—has been
used to keep criminals off the street. Although Article 3 as
interpreted in U.S. law strictly prohibits returning an individual to
a country where it is “more likely than not” that he or she would
risk being tortured, DHS officials explained that it does not require
the United States to allow criminals and other dangerous
individuals free rein in its territory.

NGOs expressed concern that aliens seeking CAT protection may
be subject to prolonged detention. Two recent Supreme Court
decisions, Zadvydas v. Davis and Clark v. Martinez, however,
restrict post-removal detention of aliens to a presumptively
reasonable period of 6 months. Based on these decisions, DHS
officials said that, in all but exceptional cases and unless DHS can
send the alien to a third country, DHS will be required to release
such an alien in the United States. Some DHS officials claimed that
hundreds of aliens granted deferral of removal each year are
released. They said that all aliens granted deferral of removal under
the CAT are not the type of people DHS would want to release to
the public. Aliens granted deferral of removal under the CAT are
ineligible for withholding of removal based on national security,
criminal, or related grounds. Releasing such people, DHS officials
said, could compromise national security and public safety.

In Zadvydas v. Davis, the Supreme Court construed INA
§ 241(a)(6) to authorize the detention of legally admitted aliens
later ordered removed only for a period reasonably necessary to
secure the removal. Presumptively after 6 months, the alien is
eligible for conditional release if there is not a significant
likelihood of removal in the reasonably foreseeable future. The
Court said that a statute permitting indefinite detention of an alien



 DHS Detainee Removals and Reliance on Assurances

                     Page 16
                              “would raise a serious constitutional problem” under the due
                              process clause of the Fifth Amendment.

                              In Clark v. Martinez, the Supreme Court extended the Zadvydas
                              construction of INA § 241(a)(6) to inadmissible aliens. Responding
                              to the government’s arguments that the security of the Nation’s
                              borders would be compromised by the release of inadmissible aliens
                              who could not be removed, the Court said that Congress “can attend
                              to it.” The Court noted that less than 4 months after the Zadvydas
                              decision, Congress enacted a statute that authorized continued
                              detention 6 months beyond the removal period and enabled this
                              period of time to be renewed indefinitely. Under the Uniting and
                              Strengthening America by Providing Appropriate Tools Required to
                              Intercept and Obstruct Terrorism Act of 2001 (USA PATRIOT
                              Act), as amended, the Secretary of Homeland Security may keep an
                              alien in continued detention although his or her removal is not
                              reasonably foreseeable, if the Secretary has reasonable grounds to
                              believe that the alien represents a security threat or has been
                              involved in terrorist activities.

                              Post-Zadvydas regulations allow an alien subject to a final order of
                              removal to request release from detention after 6 months based on
                              the alien’s belief that there is not a significant likelihood of
                              removal in the reasonably foreseeable future. ICE must provide
                              the alien, with a copy to counsel of record, a written decision on
                              whether there is such likelihood. Even if there is no significant
                              likelihood of removal within the reasonably foreseeable future,
                              however, DHS regulations permit the continued detention of
                              certain classes of removable aliens on account of special
                              circumstances. Special circumstances can justify detaining an
                              alien with a highly contagious disease who is a threat to public
                              safety; an alien whose release poses serious adverse foreign policy
                              consequences or security or terrorism concerns; and an alien
                              considered “specially dangerous” because he or she has committed
                              one or more crimes of violence and has a mental condition or
                              personality disorder, and behavior associated with either, that
                              makes it likely that he or she will engage in violence in the future,
                              and whose release will jeopardize public safety. 13

                              If ICE determines that there are special circumstances justifying an
                              “specially dangerous” alien’s continued detention, ICE must
                              follow certain procedures. 14 It must provide a written statement
                              explaining the basis of its determination and describing the
13
     See 8 C.F.R. § 241.14(f). 

14
     Such procedures do not apply in the national security or foreign policy context. 



                               DHS Detainee Removals and Reliance on Assurances

                                                     Page 17
            evidence considered, and a notice to the alien of a “reasonable
            cause hearing” before an immigration judge to consider the matter.
            Such notice must describe the alien’s rights during a reasonable
            cause hearing and a merits hearing before the Immigration Court.

            Despite the prohibitions on continued detention that Zadvydas and
            Clark affected, NGOs claimed that individuals still may be
            detained a long time while assurances are sought, and then
            removals can occur quickly, leaving no time for the detained
            individual or the attorney to protest or respond. Alternatively,
            although the assurances are obtained, the individuals might still
            remain in detention for an unspecified time. The NGOs mentioned
            the three Rwandans who were granted protection under the CAT
            but have been in detention since 2007. These are the only
            immigration cases that we know of in which aliens have been in
            continued detention for longer than 6 months while assurances are
            being considered.

Determining the Reliability of Assurances
     CAT-implementing regulations state that when the Secretary of State
     forwards assurances to the Attorney General, the Attorney General shall,
     in consultation with the Secretary of State, determine whether they are
     sufficiently reliable. The regulations state that the Attorney General’s
     authority may be delegated solely to the Deputy Attorney General or the
     Commissioner, INS.

     The Homeland Security Act of 2002, as amended, created DHS and
     transferred immigration functions from the Commissioner of the former
     INS to the newly created USCIS, ICE, and CBP.

            Balancing Enforcement and Protection: A Strong Internal
            Process With Minimal Conflicts of Interest Is Needed

            If the DHS Secretary determines that assurances are sufficiently
            reliable to allow the alien’s removal to a country consistent with
            Article 3, the Secretary has the authority to credit the assurances or
            to delegate that authority. In delegating that authority, care must
            be taken to ensure clarity of roles and responsibilities and that the
            delegation is consistent with applicable legal requirements. The
            Third Circuit in Khouzam v. Attorney General, for example, held
            that the government terminated Khouzam’s deferral of removal
            “without constitutionally sufficient process” because it did not give
            him notice, a full and fair hearing, and an opportunity to make
            arguments on his own behalf, and denied his right to an


             DHS Detainee Removals and Reliance on Assurances

                                 Page 18
individualized determination. Noting Khouzam’s argument that
the termination decision was tainted by the DHS’ bias because
DHS had been trying to remove him, the Third Circuit court
indicated that the risk of unfairness was high. In follow-up
comments to this report, the Office for Civil Rights and Civil
Liberties (CRCL) generally concurred that it is important to avoid
the appearance of a conflict of interest.

A number of DHS officials agreed that the stronger the internal
administrative process, the less need there will be for judicial
review and the more likely assurances will continue to be used as
intended: as one piece of the risk factor analysis, at high levels
insulated from review, and only in rare and important cases.

In an informal follow-up conversation, DHS officials clarified the
current process concerning assurances. They explained that as the
Director of ICE weighs the credibility of assurances, he or she may
reach out to the Secretary of State, who at that point would have
already indicated that the assurances can be credited. ICE reviews
the record in its entirety. While ICE considers whether to credit
the assurances, the alien will have the opportunity to respond. If
the Director of ICE decides to credit the assurances and determines
that the assurances are sufficiently reliable to allow for removal
consistent with Article 3 of the CAT, the alien will receive a copy
of the decision and the record. The alien then will be afforded a
reasonable time to respond in a written submission to the Deputy
Secretary of Homeland Security.

The Deputy Secretary of Homeland Security will consider the
Director of ICE’s decision and independently determine whether
the assurances are sufficiently reliable to allow for removal
consistent with Article 3 of the CAT and, if so, whether to
terminate the deferral order. The alien will be allowed a
reasonable opportunity to make written submissions before the
Deputy Secretary makes a decision and, if the Deputy Secretary
terminates the deferral order, the alien will be afforded a
reasonable opportunity to seek judicial review (including a stay of
removal) before the removal proceeds. That process is being
followed in the Rwandan cases noted above.

Reliability and the Risk Analysis

The CAT-implementing regulations and the FARRA do not define
reliability with respect to diplomatic assurances. There appears to
be a consensus within DHS that assurances need to be fact-


 DHS Detainee Removals and Reliance on Assurances

                     Page 19
                            specific, and that someone with protection expertise should be
                            involved in determining reliability factors consistent with those
                            recommended by the Task Force. NGOs said that assurances are
                            just one factor in the risk analysis that may help reduce the
                            likelihood of torture. NGOs and others met the assurances
                            provision with great suspicion during the CAT regulation drafting
                            stage. Nevertheless, the assurances provision was included
                            because the agency understood that a situation calling for
                            assurances would likely arise and that reliable assurances could
                            reduce the likelihood that the alien in question would be tortured in
                            a particular country. According to the regulation’s supplementary
                            information, “The nature and reliability of such assurances, and
                            any arrangements through which such assurances might be
                            verified, would require careful evaluation before any decision
                            could be reached about whether such assurances would allow an
                            alien's removal to that country consistent with Article 3.” 15

                            According to DHS and other sources, the risk analysis as to
                            likelihood of torture in light of assurances depends on various
                            factors: the specific government authority(ies) providing the
                            assurances; the stability of that government; the reasons the
                            particular alien would be at risk of torture; the relationship between
                            the providing and detaining authorities; the ability to conduct
                            effective post-removal monitoring; and the providing country’s
                            interest in warm relations with the United States. One NGO
                            representative said that the extent to which the U.S. government
                            believes the providing country’s government will remain in power
                            is the extent to which assurances will reduce risk.

                            The consensus was that assurances need to be and are case
                            specific, not country specific. Each individual case is different,
                            depending on the alien and the circumstances.

                            To increase reliability, one NGO said that assurances need to be
                            coordinated with country experts at the Department of State.
                            Those involved need to know specific country conditions, such as
                            whether a certain arm of a government commits human rights
                            abuses and which monitoring authority is most independent.

                            One NGO representative suggested that the verification process
                            should consider the alien’s specific beliefs as to who would torture
                            him or her. This representative also suggested that DHS consult
                            with the alien and his or her attorney.

15
     Regulations Concerning the Convention Against Torture, 64 FR 8478, 8484 (1999).


                             DHS Detainee Removals and Reliance on Assurances

                                                  Page 20
Contents and Specific Guarantees

Immigration regulations are silent as to the contents of assurances.
DHS officials said that the Department of State considers, at a
minimum, diplomatic relations, power structures, past experiences,
and country conditions on the ground when evaluating assurances.

One ICE official said that the Department of State probably seeks
particular guarantees in assurances, but because of the often
confidential nature of diplomatic communications, the content of
these guarantees may not be made public. Another ICE official
does not believe that Department of State seeks the same particular
contents for all assurances, unless officials considered the
reliability factors discussed in Khouzam v. Attorney General.
These factors include whether the terms of the assurances would
satisfy the FARRA, whether the assurances were given in good
faith, and whether there will be a means to verify compliance with
the assurances. Other reliability factors consider the identity and
position of the official relaying the assurances; and the country’s
incentives and capacity to comply with the assurances, including
its record of torture and of complying with previous assurances.

One NGO representative said that the assurances should be very
specific, include the standard of interrogation (such as any time
limitations and number of interrogators present), and include
monitoring by well-trained U.S. Embassy staff.

One DHS official said that DHS does not seek a specific
commitment for assurances because their use is so infrequent that
DHS handles each assurance case by case. Furthermore, DHS is
revising the process for assurances and is very selective in the
cases it considers for assurances. A Department of State official
said that, at a minimum, the guarantees should—

   �	 Be in writing,
   �	 Be explicit as to protection against torture,
   �	 Originate at the cabinet level or above,
   �	 Be provided by the ministry that will keep the alien in
      custody, and
   �	 Include some kind of monitoring.

In follow-up comments to this report, DHS officials said that they
are committed to providing the assurances to the alien applicants in
an unclassified format whenever possible.


 DHS Detainee Removals and Reliance on Assurances

                     Page 21
Implementing and Monitoring
     DHS officials and others said that sparing use of assurances combined
     with monitoring might reduce the risk of torture. Therefore, although
     immigration regulations do not mention monitoring, DHS and Department
     of State officials said that the Department of State normally would seek
     monitoring as part of assurances. A Department of State official said that
     the bare monitoring minimum it would seek would be access at any time
     without notice.

     According to one NGO representative, monitoring must be implemented
     within the first 10 days after return, when torture is most likely to occur.
     Monitoring should be prompt, regular, spontaneous, and in private with
     the detained individual. Monitors should have access to prison staff and
     the whole complex, since torture might occur away from the main
     confinement area.

     That said, NGO representatives who were interviewed acknowledged that
     such a mechanism could not guarantee that a returnee would not be
     tortured. NGOs that were interviewed generally believed that monitoring
     was completely ineffective. First, they said, torture is difficult to detect,
     even with monitoring. People who visit detainees undergoing torture are
     unlikely to see or hear signs because torture occurs in private. Second,
     despite assurances, a state might not have control over its security forces
     and might not be able to prevent torture. Finally, when torture is
     discovered, the United States cannot do much to help that particular
     individual. Assurances are not legally binding; they are political
     documents with no enforcement mechanism under U.S. law, and the
     United States cannot violate another state’s sovereignty to retrieve a
     returned alien found to be tortured.

     NGO representatives and DHS officials agreed that country conditions
     would dictate the monitoring authority. The monitoring authority may be
     an NGO, although to be effective it would have to be independent of the
     government and immune from government influence and pressure. A
     certain NGO might be the ideal monitor in some countries but not in
     others. One NGO representative said that it would be better to have U.S.
     Embassy staff act as the monitoring authority because of the embassy’s
     independence. NGOs also cautioned that the United States needs to be
     careful who monitors because it cannot abdicate its international
     obligations.

     One NGO mentioned that there are many bodies capable of monitoring,
     such as the United Nations bodies and the domestic bodies required under


              DHS Detainee Removals and Reliance on Assurances

                                  Page 22
                 the Optional Protocol to the CAT. Under the Optional Protocol to the
                 CAT, each signatory must have a “national preventive mechanism” with
                 the power to examine the treatment of detainees, make recommendations
                 to relevant authorities, and submit proposals and observations concerning
                 legislation. 16 States Parties “undertake to publish” the preventive
                 mechanisms’ reports, which can publicize torture when discovered. In this
                 way, states can “shame countries into compliance,” as one NGO
                 representative phrased it. DHS officials and NGO representatives
                 suggested that monitoring authorities must receive training, but one person
                 mentioned that experience might be more effective than training.

                 A CRCL official discussed factors generally considered to improve the
                 effectiveness of monitoring. For example, someone trained to recognize
                 signs of torture should make routine, spontaneous visits. The visits should
                 be in private with the individual, and the monitor should bring his or her
                 own interpreter. Even if the International Committee of the Red Cross
                 (ICRC) has access to an individual, ICRC delegates report treatment to the
                 detaining authorities, not to the U.S. government.

                 One NGO representative said that there should be “intrusive monitoring
                 with a country that is not that unstable,” particularly if that person has
                 been tortured in that state before.

                          NGO Views on Assurances

                          Partly because monitoring cannot prevent torture, some of the
                          NGOs we interviewed argued that assurances are inherently
                          flawed. In addition to the problems with monitoring, NGO
                          representatives said that the “more likely than not” standard
                          presents such a high bar that an alien who meets it should never be
                          returned, with or without assurances. They also said that
                          assurances should never be used because they are not mentioned in
                          the CAT and can be given verbally. They cited issues with due
                          process, credibility, and individual fear factors. Finally, they said
                          that there is no accountability, and those who torture know how to
                          do so without leaving obvious marks.

                          Other NGO representatives, however, explained that when
                          assurances are used, then the human rights movement will try to
                          empower their proper use and strengthen the process to diminish
                          torture. But they explained that the human rights movement
                          concerns itself with improving conditions overall and may not be
                          able to account for the treatment of a particular individual.
16
  The United States is not a signatory to the Optional Protocol to the CAT, and the country to which the
individual is removed also might not be a party.


                            DHS Detainee Removals and Reliance on Assurances

                                                  Page 23
          USCIS officials who were interviewed acknowledged that
          assurances cannot guarantee that torture will not occur. In follow-
          up comments, USCIS officials clarified that the standard for
          determining whether a return is consistent with Article 3
          obligations is not whether assurances can perfectly guarantee that
          torture will not occur, but rather whether torture is more likely than
          not to occur in light of the assurances and all other relevant
          considerations. A Department of State official said that because
          assurances are assessed in advance, the Department of State knows
          who within the providing authority is credible and has capacity.
          Again, the risk analysis depends on how the providing authority
          relates to its government and that government’s relationship with
          the United States.

Management Comments and OIG Analysis
          Our report did not contain recommendations. Therefore, the
          Department did not have to describe any corrective actions.
          However, in addition to technical comments, which we evaluated
          and used to make changes to the report where we deemed
          appropriate, the Department provided a written response consisting
          of general comments regarding its assurances process. A summary
          of the Department’s general comments and our analysis is included
          below. A copy of the Department’s entire response is included as
          appendix B.

          Management Comments: The Department has an assurances
          process that is transparent and provides safeguards for aliens for
          whom diplomatic assurances have been obtained. During the
          reporting period, in collaboration with the Department of State, the
          Department focused on improving its procedures for seeking and
          using assurances when it is ordered that an alien’s removal to a
          particular country must be withheld or deferred because the alien
          would more likely than not be tortured if removed to that country.
          The Department will consider the use of assurances only in
          extraordinary cases. If ICE’s Director, who fills the role of the
          former INS Commissioner for the purposes of assurances
          regulations, determines, in consultation with the Department of
          State, that the assurances are reliable, the mater will be referred to
          the Deputy Secretary of DHS for a decision whether to uphold the
          reliability determination. If the Deputy Secretary decides to
          terminate the withholding or deferral of removal order, that
          decision will be held in abeyance for a reasonable period to allow
          the alien an opportunity to pursue judicial review consistent with


           DHS Detainee Removals and Reliance on Assurances

                               Page 24
the implementing legislation. The Department considers reliability
factors generally accepted by the U.S. Government such as: 1) the
terms of the assurances and whether the assurances were provided
in good faith; 2) the identity, position, and scope of the authority of
the official providing the assurances; 3) whether there is objective
basis for believing that the assurances will be fulfilled; and 4) the
extent to which compliance with the assurances is verifiable. In
assessing compliance with assurances, the Department examines
whether an effective post-removal monitoring procedure exists.
DHS and Department of State officials use their respective foreign
policy, diplomacy, protection law, and country conditions expertise
to decide whether to seek and credit assurances. The Department
did not agree with all views in our report, but expressed its
appreciation for our efforts in describing the procedures for CAT
claims in immigration cases and the steps that it has taken to
improve its assurances process. The Department also expressed its
interest in continuing to cooperate with us and other stakeholders
to ensure continued compliance in removal cases with obligations
and regulations that implement the CAT.

OIG Analysis: In its comments, the Department states that it
established an assurances process that provides for transparency
and procedural safeguards for aliens for whom diplomatic
assurances have been obtained. However, during our review,
Department officials explained that the Department’s approach to
assurances is ad hoc because, by their nature, assurances are fact-
dependent and infrequent. We were provided no written
departmental procedure or process guiding the Department’s use of
assurances. Even the description of the process in the
Department’s comments contains caveats by stating that aliens
“generally” are provided an opportunity to review and present
evidence on the sufficiency of assurances, and by identifying the
reliability factors on which the Department “generally” relies. In
the absence of a definitive description of the Department’s process,
either as it existed previously or in its current form, we were
unable to assess the steps that the Department has taken to improve
its assurances process or any collaboration it has undertaken with
the Department of State.

The Department also states that the decision to terminate deferral
or withholding of removal will be stayed for a reasonable period to
allow an alien to pursue any judicial review that may be available.
First, we are unaware of any time frames within the Department
for it to determine whether to terminate deferral or withholding of
removal of an alien for whom it has sought assurances. Second,


 DHS Detainee Removals and Reliance on Assurances

                     Page 25
we are not aware of any available right to judicial review. In fact,
the legislation implementing the CAT—the FARRA—states that
“nothing should be construed as providing any court jurisdiction to
consider or review claims raised under [CAT]” except as part of
the review of a final order of removal. Similarly, CAT-
implementing regulations state that “there shall be no judicial
appeal or review or any action, decision, or claim raised under the
[CAT] . . . except as part of the review of a final order of removal
pursuant to section 242 of the [INA].” Based on the plain
language of CAT-implementing legislation and regulations, it is
our view that an alien has the right to challenge termination of
deferral or withholding of removal to the extent that it is a final
order of removal. The Department argued in Khouzam, however,
that the court did not have jurisdiction to consider termination of
deferral of removal because the termination decision was not a
final order of removal, but rather was a cause or claim under the
CAT that was precluded from judicial review.




 DHS Detainee Removals and Reliance on Assurances 


                     Page 26 

Appendix A
Purpose, Scope, and Methodology

                   We conducted this review of removals pursuant to immigration
                   law in response to a request from the Special Interagency Task
                   Force on Interrogation and Transfer Policies. The Task Force
                   asked that we report on the removals conducted by DHS that rely
                   on assurances of humane treatment of persons removed to another
                   country.

                   Specifically, the Task Force directed that we report on the process
                   for obtaining assurances, the content of assurances, the
                   implementation and monitoring of assurances, and post-removal
                   treatment of the person removed. We were required to report the
                   number of instances between August 24, 2009, and August 25,
                   2010, when removals involved obtaining assurances.

                   Within DHS, we interviewed staff from the Office of the General
                   Counsel, ICE, CBP, CRCL, and USCIS. In addition, we
                   interviewed staff from the Department of State; a consortium of
                   NGOs; representatives from the Columbia School of Law because
                   of their work on a major project involving alien detention; and
                   attorneys from the law firm Crowell and Moring, which is
                   representing one of the three Rwandan nationals.

                   We collected and reviewed documents and records relevant to
                   DHS’ assurances process.

                   We performed fieldwork from September to November 2010. Our
                   review was conducted under the authority of the Inspector General
                   Act of 1978, as amended, and according to the Quality Standards
                   for Inspections issued by the President’s Council on Integrity and
                   Efficiency.




                    DHS Detainee Removals and Reliance on Assurances 


                                        Page 27 

Appendix B
Management Comments to the Draft Report

                     DHS Response to OIG Report on Assurances

        President Obama has repeatedly underscored the Administration’s commitment to
upholding the United States’ obligations under the U.N. Convention Against Torture
(CAT) and reaffirming the Convention’s underlying principles. In Executive Order No.
13491 (Jan. 22, 2009), the President established the Special Interagency Task Force on
Interrogations and Transfer Policies, a primary mission of which was “to study and
evaluate the practices of transferring individuals to other nations in order to ensure that
such practices comply with the domestic laws, international obligations, and policies of
the United States and do not result in the transfer of individuals to other nations to face
torture or otherwise for the purpose, or with the effect, of undermining or circumventing
the commitments or obligations of the United States.”

        In its August 24, 2009 report, the Task Force made important recommendations to
the Executive Branch concerning implementation by the United States of its obligations
under Article 3 of the CAT, which prohibits the transfer or removal of an individual from
the United States to a country in which the individual would more likely than not be
subjected to torture. One recommendation was that the Inspectors General of the
Departments of State, Defense and Homeland Security prepare annually a coordinated
report on transfers or removals conducted by each of their agencies in reliance on
treatment assurances from foreign governments.

        The Department of Homeland Security (DHS) is pleased to receive this initial
annual report from the DHS Office of Inspector General (OIG), which covers DHS
removals of individuals during the period from August 24, 2009 to August 25, 2010. As
the report indicates, DHS did not seek or obtain assurances or remove any alien based on
assurances during the reporting period.

        During this period, however, in collaboration with the Department of State, the
Department has focused on improving its procedures for seeking and using assurances
when an immigration judge or the Board of Immigration Appeals (which fall under the
jurisdiction of the Department of Justice (DOJ)) orders that an alien’s removal to a
particular country must be withheld or deferred because the alien would more likely than
not be tortured and therefore cannot be removed to that country consistent with the
legislation and regulations implementing U.S. obligations under Article 3 of the CAT.
The Department will consider the use of assurances only in extraordinary cases, such as
those in which the alien is a serious criminal or presents a security threat.

        The Department has established an assurances process that provides for
appropriate transparency and substantial procedural safeguards for aliens regarding
whom treatment assurances have been obtained. For instance, aliens generally are
provided an opportunity to review the assurances and are allowed to present evidence on
the sufficiency of the assurances. If the Director of U.S. Immigration and Customs
Enforcement (who legally stands in the shoes of the former INS Commissioner for


                        DHS Detainee Removals and Reliance on Assurances 


                                            Page 28 

Appendix B
Management Comments to the Draft Report

purposes of the DHS and DOJ assurances regulations) determines, in consultation with
the Department of State, that the assurances are reliable, the matter will be referred to the
Deputy Secretary of Homeland Security for a decision whether to sustain the reliability
determination and whether to terminate the withholding or deferral of removal order
based on the assurances. Once again, the alien is afforded an opportunity to make a
written submission. If the Deputy Secretary decides to terminate the withholding or
deferral of removal order, the decision will be stayed for a reasonable period to allow the
alien an opportunity to pursue any judicial review that may be available.

         In making these determinations, the Department takes into account assurances
reliability factors generally accepted by the U.S. Government. These reliability factors
generally are: (1) the terms of the assurances and whether the assurances were provided
in good faith; (2) the identity, position, and scope of authority of the official providing
the assurances; (3) whether there is a sound, objective basis for believing that the
assurances will be fulfilled; and (4) the extent to which compliance with the assurances is
capable of being verified. In assessing compliance with the assurances, the Department
examines whether a robust post-removal monitoring mechanism would be in place that
would allow for consistent, private access to the individual with minimal advance notice
to the detaining government. Responsible DHS and Department of State officials bring
to bear their respective foreign policy, diplomacy, protection law, and country conditions
expertise throughout the process of deciding whether to seek assurances from a particular
foreign government, how to negotiate the terms of such assurances, and whether to credit
the reliability of assurances that are obtained.

        Although the Department does not agree with all of the views recounted in the
OIG’s report, we appreciate the OIG’s efforts in describing the procedures for
consideration of CAT claims in immigration cases and the steps that DHS has taken to
improve its assurances process. We look forward to continued cooperation with OIG and
other stakeholders as we work to ensure continued compliance in removal cases with
U.S. obligations imposed by the legislation and regulations implementing the Convention
consistent with the President’s policies and the Task Force’s recommendations.




                        DHS Detainee Removals and Reliance on Assurances 


                                            Page 29 

Appendix C
Tasking Document

                                                                                       II/Jio ,~IIl., ',.._nl  C.",~..-I

                                                                                       l.S. 11'1.. ,.,...., 01 II""'''''.... S... ,,,i,,
                                                                                       \\ ..... ,,~""'lX'~lS2~                        .



                                                                                       Homeland
                                                                                       Security
                                                  December 12, 2009


        Richurd L Skinner
        Jnsre<'ror Geller,ll
        U.S. Departlllenc ofltoll\cl:1I1l1 SI,:eurilY
        Wllshill~IOn. DC 20528


        DC<lr Mr. Skinner:

        PUr:iUl1l1t 10 E... ceulil'c Order J 3491 (Jnnuary 22, 20(9). the Presidenl eSlablished n Special
        [nlcmgency Tusk Fllrce "11 ImcmlW\linl\ ami Transfer P(JIit:ic.~ (Sp..:cilll Task I~orce). The Special
        Task Force, which includes Ihe Dcpm1mCl11 ofHolllcl:md Seeurily. WlIS laskctt whh providing
        (cconnncndnlions un che subjecls wilhin lIS lenm of rcference.

        Pkasc be mll'ised thm one ofthc SpI.'Cial Task Foree's rccummcnd:llioM relatc) direclly III lhe
        Ortice oflhe Insfleclor General:

                Thc Inspeelors Gcn..:ml uf Ihe Departmenl ofSlalc, lhe Dcpltllull;111 of Dcfen.~..:. :lIld
                the Department of Homcland Securily should prClmrc lInl1u:111y a coonlinnt~'<J report
                011 lransfers conducled by each ofcheir agencies ill reliance all lIMurunces [of hum.IIl":
                Il'enlmt'l\l nf !,C!"!iOns Imnsf"'Trcd by Ihc Uniled Sml..,:, 10 al1ll1hcr ooutllry]. The rcpun
                should. willi <luc regard for confidenti:,lily aud c111ssifiClllinn of infor1l1alioo. address
                Ih..: Jl"1CCS~ for obl:lining the Ilssurunccs. lhe conlcl1l "fthe DS~lIntnCCS, the
                intplcnWnllllioll an,ll\1oniloring of lhe a~~untnccs. and the j1\'~l-lrunsfcr trealment of
                Ih..: IlCfSll'l lransferred.

        I'lease coonliUlIlc wilh Ihe Illspt.'l:IOrS OcncroJ nf lhe 1)cj1llrlmcl1l s of SIMI.' and Defellse I" pn;parc
        tht' h.'C(lmmclukd Dtllllm] rcrol1. Wc lVould arprccialc your k\.·,;ping lhis olliee inlhnncd of prowess
        in implclllL1ning Ihis request.

        If )'OU h:\I'c nny IIUCSliol1s. plc<lsc c"ntael                 l"mlllmy"ffiL......


                                                   Vcr)' truly YOUN.


                                                        ~a )f,,-L
                                                   David A. Mnnin
                                                   Principal Depuly Gelloml Coul1.-..:1




16
     DHS requested that this personally identifiable information not be disclosed.



                                 DHS Detainee Removals and Reliance on Assurances 


                                                          Page 30 

Appendix D 

CAT Protection Process for Expedited Removals Per INA § 235(b)(1)
 


                                            CAT Protection Process for Expedited
                                               Removals Per INA § 235(b)(1)

                       Alien found with
                           fraudulent
                      documents or not
                      officially admitted
                           or paroled                                                                                                    Diplomatic
                                                                                                                                         assurances
                                                                                                                                         received (4)
                                                                                          Alien not removed if more
                                                                                        likely than not to be tortured
                                                                                                in that country
        No                   Fear                Yes
                                                                                                                     No
                                                                                                                                          Sufficiently
                                                                                                                                           reliable
   Removal
                                               Credible fear
                                            interview with AO
                                                                                                                No
                                                                                                                                             Yes


                                                                      Significant
                                                       No            possibility of              Yes
                                                                   credible claim (1)                                                    DHS credits
                                                                                                                                         assurances

                                             Alien requests                                    EOIR removal
                     No
                                                IJ review                                      proceedings (2)
                                                                 No


                                                  Yes

                       Yes
                                                                                                 More likely
                                               IJ affirms                                        than not (3)                                Yes
                                              AO decision




                                                    No

                                                                                                    Yes
                                                                                                                                          Deferral or
                                                                                                                                       withholding grant
                                                                                                                                          terminated




                                                                               Yes                  Bars                   No



                                                                           Deferral                                      Withholding

        (1) The “significant possibility of credible claim” standard is less stringent than the
        “reasonable possibility” standard for other administrative removals.
        (2) Alien may apply for asylum and/or CAT protection. Credible fear is not limited to
        withholding only proceedings. See INA § 240.
        (3) Alien has the right to appeal to the Board of Immigration Appeals.
        (4) Once assurances are provided, an immigration judge, the Board of Immigration
        Appeals, or an asylum office shall not further consider CAT protection. See 8 C.F.R.
        §§ 208.18(c)(3), 1208.18(c)(3); but see Khouzam v. Attorney General, 549 F.3d 235
        (3d Cir. 2008) (finding a due process right, before CAT protection is terminated, to
        some degree of impartial review of the reliability of diplomatic assurances).




                                    DHS Detainee Removals and Reliance on Assurances 


                                                                Page 31 

Appendix E 

CAT Protection Process for Removals Per INA §§ 238(b) and 241(a)(5) 


                                              CAT Protection Process for Administrative
                                             Removals Per INA § 238(b) and Reinstatement
                                                  of Removal Per INA § 241(a)(5)
                    Aliens with aggravated felony
                     convictions who are ordered
                                                                                                                                       Diplomatic
                    removed under INA 238(b) or
                                                                                                                                       assurances
                    aliens who illegally reentered
                                                                                                                                        received
                    after being removed and have
                      a previous order reinstated



                                                                                                Alien not removed if more
             No                  Fear                    Yes                                  likely than not to be tortured
                                                                                                      in that country
                                                                                                                                       Sufficiently
                                                                                                                    No
                                                                                                                                        reliable
          Removal
                                                       Reasonable fear
                                                          interview

                                                                                                                                           Yes



                                                                                                                                        Assurances
                                                                                                                                    received before or
                                                         Reasonable                                                                   after EOIR CAT
                                    No                                                 Yes
                                                      possibility of torture                                                           determination
                                                                                                                   Before

                                                                                          EOIR for
                                  Alien          No                                  “withholding only”                        EOIR may not consider CAT
                                requests                                               proceedings(1)                               claim further(2)
                   No
                            IJ review/EOIR



                                 Yes
                                                                                        More likely
                                                                                No
                                                                                         than not                                                          After
                              IJ affirms
                   Yes
                             AO decision
                                                                                             Yes
                                                                                                                               Deferral or withholding grant
                                                                                                                                        terminated
                                                                               Yes           Bars                 No



                                                                     Deferral of                              Withholding of
                                                                      removal                                    removal




             (1)   Alien has the right to appeal to the Board of Immigration Appeals
             (2)See 8 C.F.R. §1208.17(c)(3); but see Khouzam v. Att’y Gen. of the U.S., 549 F.3d 235 (3d
             Cir. 2008) (finding a due process right to some degree of impartial review of the reliability of
             diplomatic assurances before CAT protection is terminated).




                                DHS Detainee Removals and Reliance on Assurances 


                                                                 Page 32 

Appendix F
Major Contributors to this Report

                    Carlton I. Mann, Assistant Inspector General, Inspections
                    Richard Reback, Counsel to the Inspector General
                    Nancy Eyl, Assistant Counsel to the Inspector General




                     DHS Detainee Removals and Reliance on Assurances 


                                         Page 33 

Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                       DHS Detainee Removals and Reliance on Assurances 


                                           Page 34
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
